              AUDIT REPORT
                 12-01




Selected Aspects of GPO Time and Attendance
         and Payroll Administration


            November 16, 2011
Date
November 16, 2011
To
Chief Human Capital Officer
Chief Financial Officer
From
Assistant Inspector General for Audits and Inspections
Subject
Final Report on Audit of Selected Aspects of GPO Time and Attendance
and Payroll Administration
Report Number 12-01


Enclosed please find the subject final report. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response has
been incorporated into the body of the report following each
recommendation and the response is included in its entirety at Appendix C.
Appendix D to the report contains additional OIG comments that respond to
management’s comments.

We consider management’s comments responsive to only six of the report’s
11 recommendations. Recommendation 4 will be closed upon issuance of
this report. Recommendations 1, 3, 6, 10, and 11 are resolved but will
remain open pending completion of the agreed upon corrective actions.
With respect to recommendations 2, 5, 7, 8, and 9, we do not consider your
comments responsive for the reasons detailed in the body of this report.
Those recommendations are therefore considered unresolved. We ask that
you reconsider your position on each of the unresolved recommendations
and provide us with an updated response to each of those recommendations
within 30 days from the issuance of this report.

The status of each recommendation upon issuance of this report is included
in Appendix E. The final report distribution is in Appendix F.
We appreciate the courtesies extended to the audit staff. If you need
additional information or would like to arrange a meeting to discuss this
final report, please contact Mr. Karl Allen, Supervisory Auditor at
(202) 512-0277, or me at (202) 512-2009.




Kevin J. Carson
Assistant Inspector General for Audits and Inspections

Enclosure

cc:
Assistant Public Printer, Operations
Assistant Public Printer, Superintendent of Documents
Chief of Staff
General Counsel
Chief Information Officer




                                      ii
Contents

Executive Summary................................................................................................................................... i

Introduction .................................................................................................................................................. 1

Findings and Recommendations ....................................................................................................... 2

             Finding A. Excessive Use of Leave without Pay ................................................................ 2

             Finding B. Lack of Corrective Actions for Absence Without Leave .......................... 8

             Finding C. Bi-Weekly Pay Limitations Exceeded ............................................................. 12

             Finding D. Annual Leave Advanced Improperly .............................................................. 16

Other Observations ................................................................................................................................... 18

Appendix A – Objectives, Scope, and Methodology ................................................................. 19

Appendix B - Acronyms Used in the Report ................................................................................ 22

Appendix C - Management’s Response .......................................................................................... 23

Appendix D – Office of Inspector General Comments on Management’s
             Response........................................................................................................................... 29

Appendix E - Status of Recommendations ................................................................................... 31

Appendix F - Report Distribution...................................................................................................... 32

Major Contributors .................................................................................................................................... 33
                         Office of Inspector General


Report Number 12-01                                     November 16, 2011


              Selected Aspects of GPO Time and Attendance
                       and Payroll Administration


                              Executive Summary

Background

At the request of U.S. Government Printing Office (GPO) senior management, the
Office of Inspector General (OIG) performed an audit of various components of the
Agency’s time and attendance and payroll administration. Management expressed
concern that the Agency was not always complying with certain statutes and
directives related to payroll processing. Agency management also expressed
concern about the excessive use of Leave Without Pay (LWOP) and employee
Absence Without Leave (AWOL) throughout the Agency.

Objectives

The objectives of the audit were to determine whether GPO complied with
applicable laws, rules, regulations, guidance, and GPO Directives/Instructions
related to the:

          •   Request and approval of LWOP;
          •   Management of AWOL;
          •   Calculation and administration of bi‐weekly and annual pay
              limitations;
          •   Request, approval, calculation, and administration of advanced annual
              leave; and
          •   Calculation, payment, and administration of the GPO Goal Sharing
              Program.

An additional audit objective, to evaluate GPO’s management and control of
overtime, will be addressed as part of a separate, ongoing audit.

Results of Audit

GPO did not always comply with applicable guidance related to time and attendance
and payroll administration. Specifically, the audit identified that:

                                          i
   •   Ineffective management controls related to requesting and approving LWOP
       contributed to GPO employees taking nearly 15,000 LWOP days, or over 57
       person-years of lost production time in 2009 and 2010 (Finding A);

   •   GPO employee AWOL and the lack of effective corrective actions by GPO
       managers resulted in over 10,000 hours of lost productivity in 2009 and
       2010 (Finding B);

   •   GPO had no controls in place to detect instances of employees exceeding bi-
       weekly pay limitations resulting in 340 violations of the limitations in 2009
       and 2010 and overpayments to GPO employees of $372,717 (Finding C);

   •   GPO was inappropriately advancing annual leave to otherwise ineligible
       employees (Finding D); and

   •   The GPO Office of Human Capital did not use an accurate methodology to
       calculate 2009 goal-sharing bonuses, resulting in incorrect payments for a
       small number (2 percent) of GPO employees (Other Observations).

Recommendations

We made a total of 11 recommendations to management, that if implemented, will
strengthen internal controls over employee time and attendance and payroll
administration which will result in increased employee productivity; and significant
cost savings by reducing LWOP, AWOL, violations of the bi-weekly pay limitations,
and annual leave expense.

Management’s Response

GPO management concurred with six of the report’s 11 recommendations and has
either taken or proposed responsive corrective actions. Management did not concur
with five recommendations. We have requested management to reconsider their
position on these five recommendations and provide us with an updated response.




                                          ii
Introduction

Title 44, United States Code (USC), Section 305, states that the Public Printer “may
employ journeymen, apprentices, laborers, and other persons necessary for the
work of the Government Printing Office at rates of wages and salaries, including
compensation for night and overtime work, he considers for the interest of the
Government and just to the persons employed. . . .” At GPO, the responsibility for
hiring and paying employees is a shared effort among the Office of Human Capital
(HC), Office of Finance and Administration, and GPO’s line managers. These
personnel work with assistance from the U.S. Office of Personnel Management
(OPM) for personnel policy support and with the U.S. Department of Agriculture’s
National Finance Center (NFC), which is GPO’s service provider for payroll
processing. The NFC also maintains GPO’s official records of employee leave
accrual, usage, and balances.

GPO employee levels and payroll for fiscal years 2009 and 2010 were as follows:

   Fiscal Year     Employees (at year end)     Personnel Compensation
      2009                   2,329                   $242,477,000
      2010                   2,300                   $234,623,000
                    Table 1. GPO Payroll Data 2009 and 2010

Personnel compensation consists of wages and salaries, including overtime
premium and night differential, as well as the Agency’s share of contributions
towards Federal Employees Health Benefits, Federal Employees’ Group Life
Insurance and Federal Government civilian employee retirement programs.




                                          1
Findings and Recommendations

Finding A. Excessive Use of Leave Without Pay

GPO employees have incurred an excessive amount of Leave Without Pay (LWOP).
Specifically, during 2009 and 2010, employees used a total of 14,839 days of LWOP,
or over 57 person-years of lost productive time. Two factors contributed to the
excessive use of LWOP including:

   •   managers continuously approving LWOP without obtaining and maintaining
       the required supporting documentation to justify LWOP use; and

   •   weaknesses with WebTA, GPO’s time and attendance system, which
       prevented both line managers and senior management from effectively
       managing the use of LWOP.

The excessive use of LWOP resulted in GPO budgeting and incurring administrative
costs and overtime to maintain and supplement the work of staff on LWOP that was
not contributing to GPO’s mission.

GPO LWOP Policy.

Chapter 8 of GPO Instruction 645.13, “GPO Leave Regulations,” July 25, 1988,
defines LWOP as “approved absence from duty in a nonpay status granted upon an
employee's request and at the discretion of the appropriate approving official.” The
instruction further states that supervisors may grant LWOP for discretionary
reasons such as personal emergencies or sickness, or mandatory reasons such as an
employee awaiting adjudication of a claim filed with the Office of Workers'
Compensation Programs.

The instruction limits the amount of LWOP that employees can take to 40 hours per
year for personal emergencies, 80 hours per year for sickness not requiring
hospitalization, and a “reasonable amount” for sickness that requires
hospitalization. Supervisors may only grant LWOP for personal emergencies or
sickness after the requesting employee has exhausted all annual leave (for personal
emergencies) or sick leave (for sickness).

GPO Instruction 645.16, “Family/Medical Leave Without Pay (FMWOP) Under the
Family and Medical Leave Act of 1993,” August 5, 1993, states that supervisors may
also grant up to 12 administrative workweeks of LWOP for:

   •   the birth of a child of the employee and care for the child;
   •   the placement of a child with the employee for adoption or foster care and
       care for the child;


                                         2
      •   care for the employee's spouse, child, or parent who has a serious health
          condition; or
      •   the employee's inability to perform the functions of his or her job because of
          a serious health condition.

Although GPO does not pay the salaries of employees on LWOP, the Agency still
incurs costs for employee benefits to a certain extent, as well as the administrative
costs of maintaining and budgeting for those employees.

Excessive LWOP

GPO employees incurred an excessive amount of Leave Without Pay (LWOP) during
2009 and 2010, essentially equating to over 57 person-years of lost productive time.
Table 2 details the number of employees, the hours, the number of days and person-
years of LWOP used during calendar years 2009 and 2010.


                      Number of
      Year            Employees             Hours        Days Person-Years 1
      2009                378               62,000       7,750      29.8
      2010                413               56,715       7,089      27.3
                Table 2. LWOP Data for Calendar years 2009 and 2010

Included in the Table above were several individuals who clearly used excessive
amounts of LWOP during 2009 and 2010. For example, included in the Table’s
summary data were a total of fifty employees who each had at least 300 hours of
non-mandatory LWOP in 2010. In another instance, an employee in the GPO Office
of Operations Support was allowed to take 437 hours of LWOP, without obtaining
any written approval or providing any medical certification. Among GPO
organization’s incurring large amounts of LWOP, the Electrical Branch incurred over
800 days of LWOP in 2009. None of the LWOP incurred by Electrical Branch
employees was supported by either written approval or medical certification.

GPO’s Managers Did Not Properly Approve LWOP

The excessive use of LWOP occurred because GPO managers continuously approved
LWOP without obtaining and maintaining the required supporting documentation.
Both GPO Instructions related to LWOP (645.13 and 645.16) require that all
requests for LWOP be in writing and be submitted whenever possible at least 1
workday prior to the date for which the LWOP is requested (30 days prior for
FMWOP). These instructions further require that employees should submit
appropriate medical certificates for all sick LWOP/FMWOP and that supervisors


1We   calculated Person-Years as number of hours divided by 2080.

                                                 3
should maintain adequate records to show their reasons for approving or
disapproving requests for LWOP.

To determine if supervisors maintained adequate documentation for approving
LWOP, we selected a sample of LWOP for 2009 consisting of (1) all employees (76)
who incurred over 30 days (240 hours) of LWOP, and (2) a random 10 percent
sample of all other employees (44) who incurred LWOP, for a total sample size of
120 employees. We then contacted each of the sampled employees’ supervisors to
determine whether proper approval was obtained and supporting documentation
was provided and maintained for the LWOP used by the sampled employees.

We identified that for 32 of the 120 personnel with LWOP (26 percent), managers
did not have documentation supporting the reason for the request, subsequent
approval and if for sick LWOP or FMWOP, the medical need.

WebTA Was Not Effective For Managing LWOP

WebTA, the GPO’s automated time and attendance system, had weaknesses that
prohibited both line managers and senior management from effectively managing
LWOP. Specifically, we found that:

    •    The WebTA system repeatedly permitted employees to submit a request for
         annual leave despite employees having exhausted all accrued and advanced
         annual leave. In these cases, WebTA would record the employee’s leave
         balance as negative, but would still allow the leave request to be processed
         by the WebTA system. As a result, WebTA did not make the requesting GPO
         employee’s leave-approving official (supervisor) immediately aware that the
         employee had an elapsed annual leave balance. This resulted in the leave-
         approving official approving the request being unaware that the requesting
         employee had no annual leave. In every case, the NFC correctly recorded the
         employees as LWOP and their pay was reduced accordingly. However,
         because of this WebTA system issue, a significant portion of GPO employee
         WebTA leave balances were inaccurate and did not agree with leave balances
         recorded by NFC 2.

    •    The LWOP categories in WebTA’s LWOP “Transaction Type” drop-down
         menu did not match the various LWOP categories in GPO Directives 645.13
         and 645.16. These directives allowed for 17 different categories of LWOP,
         with each category having different requirements for allowability and limits.
         Despite the 17 categories of LWOP established in the GPO directives, the
         WebTA system’s LWOP “Transaction Type” drop-down menu only offered


2GPO’s  Independent Public Accountant, in performing its audit of GPO’s FY 2010 financial statements
also reported that annual leave balances in WebTA did not agree with the annual leave balances
reflected by NFC and made recommendations for improvement.

                                                 4
       nine LWOP category choices. These nine categories included a generic
       category “LWOP” of which most LWOP requests were categorized.

       Because of the differences between the categories of LWOP established by
       GPO directives and the different categories of LWOP in WebTA, leave-
       approving officials were prevented from managing LWOP effectively. For
       example, GPO Directive 645.13 allows for two different categories of sick
       leave without pay: (1) a reasonable amount for a major illness that requires
       hospitalization, and (2) up to 80 hours for an illness that does not require
       hospitalization. However, WebTA had only one category-“LWOP in lieu of
       sick.” As a result of these differences, managers were unable to use WebTA
       to determine the amount of LWOP by category for each requesting employee.

   •   WebTA contained erroneous data with regard to LWOP. In addition to the
       inaccuracies in WebTA leave balances and LWOP categories as noted above,
       we identified that 24 percent of the personnel identified with LWOP balances
       in WebTA from our sample, had not actually been on LWOP. For example, we
       identified an employee in the Uniformed Police Division who was incorrectly
       placed on LWOP for 160 hours when in fact, the individual had actually
       retired from federal service. The employee was never removed from the
       WebTA system after retiring. Due to errors such as these, WebTA was unable
       to generate reliable reports for managing LWOP.

LWOP’s Adverse Impact on Budgeting and Production

Because of the excessive use of LWOP, GPO budgeted for and incurred
administrative costs to maintain staff on LWOP who were not actively contributing
to GPO’s mission. As shown above in Table 2, GPO was short nearly 30 budgeted-for
employees for 2009 and approximately 27 employees for 2010 due to employees
being in LWOP status. Moreover, it is likely that excessive LWOP increased the cost
of production due to resultant increases in overtime to cover for the missing
employees. We intend to further analyze the use of overtime to compensate for
employees on LWOP during our ongoing audit of overtime usage at GPO.

Recommendations

       1. The Chief Human Capital Officer (CHCO) should request all GPO business
       unit managers to ensure that all supervisors within their respective areas of
       responsibility (a) attend training on the proper management of employee
       time, attendance, and leave, (b) require all applicable documentation prior to
       approval of LWOP, maintain appropriate records, including documentation of
       approval, (c) enforce the LWOP time limitations in GPO Instruction 645.13,
       and (d) review WebTA data for all employees within their respective
       business units to ensure that all LWOP data is complete and accurate.


                                         5
Management’s Response. Concur. The CHCO will instruct all Business Unit
Managing Directors to perform and comply with items (a) through (d).

Evaluation of Management’s Response. Management’s planned action is
responsive to the recommendation. The recommendation is resolved but
undispositioned and will remain open for reporting purposes pending completion
and confirmation of the CHCO’s planned actions.

      2. The Chief Financial Officer (CFO) should request a modification to the
      WebTA system to (a) prohibit WebTA from allowing an employee to request
      annual leave when that employee has a zero advanced and accrued annual
      leave balance; (b) change the categories in the LWOP Transaction Type drop-
      down menu to match exactly the categories of LWOP established in GPO
      Directives 645.13, and 645.16. For example, change “LWOP in lieu of
      Sick/Injured” to “LWOP-Workman’s Compensation” and re-title the generic
      “LWOP” to “LWOP-Personal Emergency;” and (c) create reports for use by
      line supervisors responsible for approving leave and LWOP, which identify
      individuals who exceed pre-established LWOP limits.

Management’s Response. Management non-concurred with part (a) stating that
the recommended change to WebTA would preclude an employee from requesting
mandatory LWOP such as LWOP for military duty or LWOP for an employee
awaiting adjudication of a claim filed with the Office of Workers Compensation
Programs. Management concurred with part (b) and will make the recommended
changes to WebTA by early 2012. Management also concurred with part (c) as the
GPO Office of Finance and Administration provides bi-weekly reports of LWOP data
to the CHCO and other GPO senior managers.

Evaluation of Management’s Response. Management should reconsider its
response with respect to recommendation 2(a). The recommendation specifically
requested that WebTA prohibit an employee from requesting annual leave when
the employee has a zero advanced and accrued annual leave balance. Implementing
the recommendation will not affect an employee requesting LWOP of any other
kind. As a result, the recommendation is unresolved. We ask that management
(CFO) reconsider their position on this recommendation only as it relates to
prohibiting WebTA from allowing an employee with a zero balance of advanced and
accrued annual leave from requesting annual leave.

Management’s planned action is responsive to recommendation parts 2(b) and 2(c).
However, the entire recommendation is considered unresolved pending
management’s reconsideration of part 2(a).

      3. The CHCO should direct that GPO University emphasize that all time,
      attendance and leave training include LWOP approval and documentation
      requirements.


                                       6
Management’s Response. Non-concur. Management stated that various training
courses for GPO supervisors currently exist to accomplish the action recommended.

Evaluation of Management’s Response. While we acknowledge that there are
various training courses available, a low percentage of GPO supervisors have
attended. Further, the subject of LWOP approval and documentation is not always
adequately addressed. For example, OIG staff members attended the GPO’s
Experienced Managers course in February 2011 and found that the course did not
specifically address documentation requirements for LWOP. OIG staff also recently
attended the Leave Policies and Procedures course and found that the course did
address LWOP documentation procedures. As acknowledged in management’s
response, only 45 percent of GPO managers and supervisors have taken the Leave
Policies and Procedures course. This lack of course attendance by GPO supervisors
was clearly apparent during the audit when we found that a significant number of
supervisors were not familiar with the proper procedures for requesting, approving,
and documenting the use of LWOP. Management’s planned action in response to
Recommendation 1(a) to ensure that all supervisors within their respective areas of
responsibility attend training on the proper management of employee time,
attendance, and leave, will meet the intention of this recommendation. This
recommendation is therefore considered resolved but undispositioned, and will
remain open for reporting purposes pending completion and confirmation of the
planned actions for Recommendation 1(a).




                                        7
Finding B. Lack of Corrective Actions for Absence without Leave

GPO reported over 10,000 hours of employee absence without leave (AWOL) during
2009 and 2010. This high occurrence of AWOL is occurring because GPO managers
do not always properly document and take prescribed corrective actions in
accordance with GPO policy against employees in an AWOL status. As a result, GPO
has incurred a significant amount of administrative costs to retain employees who
(1) were not contributing to GPO’s mission, and (2) potentially should have been
removed from employment at GPO.

GPO AWOL Policy

GPO Instruction 645.13 defines AWOL as “an absence from duty which is not
approved or excused by the employee's supervisor…and (which is) subject to
disciplinary action.”

GPO Directive 655.4B, “Corrective Actions,” December 5, 2008, outlines the
suggested disciplinary actions for AWOL as follows:

 Days AWOL        First Offense         Second Offense        Subsequent Offenses
                  Verbal Warning –      Letter of Warning –   Long Suspension -
 1 Day or Less
                  Short Suspension      Long Suspension       Removal
 Between 2        Letter of Warning –   Long Suspension –     Removal
 and 5 Days       Long Suspension       Removal
 More than 5      Short Suspension -    Removal
 Days             Removal
                 Table 3. AWOL Recommended Corrective Actions
GPO Directive 655.4B further requires supervisors to document all verbal warnings
using GPO Form 2614, “Employee Record.”

GPO AWOL Data

During 2009 and 2010, GPO incurred over 10,000 hours of employee AWOL.
Specifically, GPO reported AWOL for 2009 and 2010 as follows:

                 Number of
   Year          Employees        Hours          Days       Person-Years
   2009             114            5983          748             2.9
   2010              83            4804          600             2.3
                   Table 4. GPO AWOL Data for 2009 and 2010




                                         8
Disciplinary Action Not Documented or Taken

In accordance with the provisions of Directive 645.13, each of the employees in
Table 3 were absent without approval from their supervisor and based on their
AWOL status, were subject to some type of disciplinary action. To determine
whether appropriate corrective action was taken, we examined the supporting
documentation of a sample of employees whom GPO reported as AWOL.
Specifically, we sampled all GPO employees reported as being on AWOL for the
period of May 9, 2010 through October 9, 2010 to determine whether management
took the proper disciplinary action.

During the period sampled, GPO records reported that 50 individuals were AWOL
for a total of 1,331 hours. For 14 of the 50, we found that the employees’ supervisor
subsequently approved the absence but neglected to update WebTA to change the
absence from AWOL to LWOP. Of the remaining 36 employees in the sample that
were AWOL between May 9 and October 9, 2010, we found that eight (18 percent)
did not receive any disciplinary actions from their supervisor despite being AWOL.
In addition, for 3 of the 15 individuals who received a verbal warning, the
supervisor did not document the verbal warning as required by Directive 655.4B.
Therefore we could not verify that the supervisor actually took the disciplinary
action. The following Table provides details of our sample analysis.

                                                                                Number of
  Action Type                                                                   Employees
  Not Actually AWOL                                                                14
  Employee Removed                                                                  1
  Employee Suspension Proposed 3                                                    5
  Employee Received Letter of Warning                                               4
  Employee Received Verbal Warning (three of which were not
  documented)                                                                         15
  No Disciplinary Action Taken                                                         8
  Employee Retired or Left GPO for Other Reason                                        3
  Total Examined                                                                      50
                   Table 5. Results of Examination of AWOL Sample

Included in our sample were a total of 15 employees who were AWOL either (1) 1
day or less in at least three separate pay periods, or (2) 2 or more concurrent days
in at least two separate pay periods. According to the suggested disciplinary actions
in Directive 655.4B, each of these 15 employees potentially could have been
removed from employment for these multiple instances of AWOL. However,
because of a lack of adequate documentation maintained by supervisors, we could


3Theemployee’s supervisor initiated a formal proposal to suspend the employee. As of the
completion of our audit fieldwork, the formal suspension had not yet been implemented.

                                                9
not determine why disciplinary action up to including removal from federal service
was not taken. Other examples from our sample include:

   •   An employee who was AWOL a total of 29 hours over four pay periods but
       was not disciplined by the supervisor.

   •   An employee who was AWOL a total of 45 hours, but the employee’s
       supervisor took no disciplinary action because of a pending corrective action
       for another matter.

   •   An employee who was AWOL a total of 115 hours between May and
       September 2010, but was only given a formal written warning.

Because of the lack of accountability or disciplinary action resulting from GPO
employees on AWOL, the Agency is required to budget for and incur administrative
costs to maintain personnel who fail to come to work. Further, an employee on
AWOL also forces the Agency to potentially expend overtime to cover the
responsibilities of an employee on AWOL. Not implementing and documenting the
required corrective actions could negatively impact the morale of productive
employees who comply with GPO time and attendance regulations. Immediate
actions should be taken by management to control and limit the use of AWOL by
GPO employees.

Recommendations

       4. The CFO should, at the completion of each pay period, produce and
       provide to all business unit managers a report identifying all employees
       reported as AWOL during the pay period.

Management’s Response. Concur. The GPO Office of Finance and Administration
provides bi-weekly reports of AWOL data to the CHCO and other GPO senior
managers.

Evaluation of Management’s Response. The recommendation is resolved and
dispositioned and will be closed upon issuance of this report.

       5. The CHCO should direct all GPO business unit managers to ensure that
       supervisors are aware of, have taken, and documented appropriate
       disciplinary actions as outlined in Directive 655.4B for employees reported
       as AWOL.

Management’s Response. Management stated that it would comply with this
recommendation referencing its response to Recommendation 1.



                                         10
Evaluation of Management’s Response. Management’s proposed actions are not
responsive to the recommendation. Specifically, management referred to its
proposed actions to be taken in response to Recommendation 1; however, those
actions concern LWOP only and make no mention of AWOL. This recommendation
is therefore considered unresolved. Management (CHCO) should reconsider its
position and provide additional comments on how it intends to ensure that
supervisors are aware of, have taken, and documented appropriate disciplinary
actions as outlined in GPO Directive 655.4B for employees reported as AWOL.




                                      11
Finding C. Bi-Weekly Pay Limitations Exceeded

During 2009 and 2010, there were 340 instances where a GPO employee’s earnings
exceeded the bi-weekly salary cap imposed by GPO Directive 640.7D, “General Pay
Administration,” April 8, 2008 4. This occurred because GPO did not establish
internal controls to validate and manage salary payments in excess of the salary cap.
In 2009 and 2010, GPO paid $372,717 in excess of salary limits. Because those
payments were in excess of those authorized under GPO Directive 640.7D, they are
considered erroneous payments and are subject to debt claims by GPO 5.

GPO Directive 640.7D states that Premium pay (overtime, Sunday pay, Holiday pay,
etc.) may be paid to a covered employee only to the extent that it does not cause an
employee’s aggregate pay for any pay period to exceed the maximum rate for a GS-
15. Therefore, any employee on a PG-or-equivalent 6 pay scale is limited on a
biweekly basis to gross pay equal to the maximum GS-15 pay. The bi-weekly
amounts were $5,892.30 for 2009 and $5,980 for 2010.

For 2009 and 2010, we identified 340 instances of PG-or-equivalent employees
earning more than the biweekly pay period limitation as shown below:

            Year             Number Of Violations       Amount Overpaid
            2009                      229                   $278,560
            2010                      111                   $ 94,157
           Table 6. 2009 and 2010 Bi-weekly Pay Limitation Violations

The 340 violations did not include employees who received a waiver from this
requirement from the Public Printer. The 340 violations resulted in a total
overpayment of $372,717. Although a few of the violations were due to retention
agreement payments, the majority of the overpayments were due to premium
payments for overtime (all of the 111 violations from 2010 were due to overtime).

Payments in excess of the Agency’s pay limitations occurred because GPO did not
establish internal controls to validate and manage salary payments in excess of the
salary cap. Directive 640.7D does not place responsibility on any particular person
or organization for monitoring compliance with the pay limitations. Starting in May,
2010, Office of Finance and Administration (OFA) personnel reviewed the bi-weekly
payroll to identify pay limitation violations and then forwarded the information to


4The salary caps for white-collar employees under GPO Directive 640.7D mirror the caps imposed by

law under 5 U.S.C. § 5547 for agencies other than GPO. In general, the Public Printer has the
authority to set pay and wages for employees, including overtime, “he considers for the interest of
the Government and just to the persons employed…” 44 U.S.C. § 305.
5See GPO Directives 445.19, “Debt Collection Procedures”, May 13, 1991, and 445.16B, “Waiver of

Claims for Erroneous Payment of Pay or Allowances”, August 4, 2003.
6PG equivalent pay plans include GI (Investigators), PQ (Day Police Officers), PZ (Night Police

Officers) and PU (Night White-Collar).

                                                12
Human Capital (HC) for collection action. However, we saw no evidence of any
subsequent collection actions.

Although the number of violations decreased substantially from 2009 to 2010,
violations continued to occur into 2011. In addition, many GPO managers that we
interviewed were not familiar with the salary cap requirement and therefore would
schedule employees for overtime in amounts that would place the scheduled
employee above the biweekly salary cap. Finally, the GPO payroll system did not
have controls in place to detect and prevent payments that exceeded the bi-weekly
pay limitation. In June 2010, OFA submitted a request to HC requesting that NFC
modify the payroll system to set a cap on the bi-weekly earnings limitations for PG
and equivalent employees. In March 2011, HC began the process to request NFC to
make the change, and in April 2011, GPO management notified us that it had
initiated action with NFC to modify the NFC payroll system to prevent salary
payments to PG employees in excess of the bi-weekly salary cap.

Recommendations

      6. GPO Directive 640.7D should be revised to (a) direct all potential
      overtime-authorizing officials to ensure that any overtime authorized does
      not cause an employee to exceed the bi-weekly pay cap; (b) assign a specific
      person or office the responsibility for monitoring agency compliance with the
      bi-weekly pay limitations and implementing claims against those who exceed
      the limitation; and (c) clearly convey the consequences of exceeding the
      salary caps—such as, managers being subject to corrective action for
      authorizing pay exceeding the salary cap and employees being subject to
      debt claims for overpayments.

Management’s Response. Concur. Management plans to revise Directive 640.7D
to include items (a) through (c).

Evaluation of Management’s Response. Management’s planned action is
responsive to the recommendation. The recommendation is resolved but
undispositioned and will remain open for reporting purposes pending the revision
of Directive 640.7D.

      7. The CHCO, in conjunction with the CFO, should take appropriate action to
      initiate collections of all amounts paid in excess of the bi-weekly salary cap
      from all employees who exceeded the bi-weekly limit.

Management’s Response. Non-concur. The Chief Financial Officer has no
authority to collect the overpayments, even if they violate the bi-weekly pay cap.
The United States Code of Federal Regulations (CFR) part 550.111, “Authorization of
Overtime Pay”, states that if a supervisor officially allows an employee to work
overtime, the employee must be compensated for such work. The bi-weekly

                                        13
certification of an employee’s time and attendance in WebTA by the supervisor or
manager officially validates each overtime payment.

The answer to the problem of allowing employees to work over the cap is best
addressed by holding each supervisor and manager responsible for monitoring their
employees leave, time worked, and overtime to ensure that the employee’s salary
complies with the bi-weekly pay cap rule. This can be accomplished through
performance review.

Evaluation of Management’s Response. Management cites CFR section 550 as its
requirement for paying overtime. Although CFR 550.111 provides that agencies
shall pay employees for overtime, CFR 550.105 states that an employee may receive
premium pay only to the extent that the payment does not cause the total of his or
her basic pay and premium pay for any biweekly pay period to exceed the maximum
biweekly rate of basic pay payable to a GS–15.

Regardless, we believe that CFR 550.11 is not applicable in this circumstance, as
section 550.101 states that it applies only to legislative branch employees covered
in subchapter V of 5 USC 55, of which GPO is not included. Of relevance however, is
Title 44, USC 305, which states that the Public Printer “may employ journeymen,
apprentices, laborers, and other persons necessary for the work of the Government
Printing Office at rates of wages and salaries, including compensation for night and
overtime work, he considers for the interest of the Government and just to the
persons employed. . . .” As GPO Instruction 640.7D is approved by the Deputy Public
Printer under the authority of the Public Printer, this is determination regarding
compensation under section 44 USC 305. Furthermore, the provisions of the Fair
Labor Standards Act (FLSA) generally do not apply either, as all but 23 of the 340
identified bi-weekly salary cap infractions for 2009 and 2010 were incurred by
employees who were FLSA-exempt. Because of the conflict between the cited
source of criteria, we ask that management reconsider its position and provide us
with additional information related to its determination that overtime amounts paid
in excess of the bi-weekly salary cap are uncollectible. The recommendation is
therefore considered unresolved.

       8. The CHCO should direct GPO University to add salary cap information to
       supervisory courses, as well as educate all employees on the maximum
       number of premium pay hours employees can be paid during a pay period.

Management’s Response. Non-concur. Management stated that it would comply
with this recommendation referencing its response to Recommendation 3 regarding
the training courses that already exist for leave administration.

Evaluation of Management’s Response. Management’s comments are not
responsive to the recommendation. Specifically, management refers to its response
to Recommendation 3 in which it outlines the various courses offered to employees
that deal with leave administration, however; there is no mention of bi-weekly
                                        14
salary cap administration in that response. At the current time, salary cap
management is not covered in any course offered by GPO University. The
recommendation is therefore considered unresolved. We request management
(CHCO) provide additional information on how it intends to address bi-weekly
salary cap management as part of the supervisory training courses.

       9. The CFO and CHCO should ensure that the NFC payroll system is modified
       to prevent payment to PG and equivalent employees in excess off GPO’s bi-
       weekly pay limitations.

Management’s Response. Non-concur. Management plans to have the NFC payroll
system modified to implement an aggregate pay cap for annual salary only.
Management suggests supervisors and managers be properly trained and held
accountable perhaps through their annual performance plans. Management states
that this may be the most effective way to rein in errant payments.

The CFO has been distributing bi-weekly pay cap reports to the business unit
managers since last year. The reports serve to make managers aware of the total
amount of overtime that can be worked per employee, to prevent overpayments.

Evaluation of Management’s Response. Management’s comments are not
responsive to the recommendation. An aggregate pay cap for annual salary not only
doesn’t address the issue of payments in excess of the bi-weekly pay cap in a timely
manner, but also could create a situation where an employee’s annual pay could hit
the cap before the end of the year. During the course of the audit, GPO officials from
the Office of Finance and Administration informed us that they planned to
implement controls through the NFC payroll system as a means to prevent
employees from exceeding the bi-weekly salary cap. Management had even gone as
far as to initiate an agreement with NFC to implement the bi-weekly pay cap at a
cost to GPO of only $22,600. Had the bi-weekly salary cap been in effect during
2009 and 2010, GPO could have prevented over $372,000 in overpayments to
employees.

The recommendation is therefore considered unresolved. We request that
management (CFO and CHCO) provide additional information specifically
addressing why the modification to the NFC payroll system will not include a control
to prevent salaries from exceeding the bi-weekly pay cap.




                                          15
Finding D. Annual Leave Advanced Improperly

GPO improperly advanced annual leave to employees who had incurred more than
80 hours of LWOP in the previous year. This occurred because GPO had no time and
attendance system controls in place to prevent annual leave from being advanced to
ineligible employees. As a result, GPO increases its risk of potentially incurring the
cost of annual leave for employees who are at risk of not earning it while reducing
incentives to employees to refrain from using excessive amounts of LWOP.

GPO Instruction 645.13, “GPO Leave Regulations,” July 25, 1988, states that GPO
employees who are career status and have at least one year of service may be
advanced the total number of hours of annual leave that they are expected to earn
by the end of the current leave year. The instruction does not permit annual leave
to be advanced to an employee if they had 80 or more total hours of unpaid status in
the prior leave year due to AWOL, suspension, or LWOP resulting from personal
emergencies, sick leave, education, parental leave, education or maternity (but not
including FMLA leave). WebTA automatically advances annual leave to all
employees at the beginning of each leave year.

We analyzed a judgmentally selected sample of the 12 employees with the highest
amounts of LWOP at the end of 2009, all with an annual leave balance of less than
negative 18 hours, and we identified that 4 (33 percent) were improperly advanced
annual leave in 2010. One employee, whom GPO reported as being 148 hours
AWOL in 2009, was still advanced annual leave at the beginning of 2010. That
employee then used 19 hours of advanced annual leave in Pay Period 2 of 2010,
bringing their accumulated annual leave balance to negative 35 hours.

WebTA did not identify employees who were ineligible for advanced annual leave
and thus it was the responsibility of line management to identify such employees.
However, because WebTA was not descriptive enough to allow managers to identify
leave balances associated with each LWOP category as defined in GPO Directive
645.13 (and as described in Finding A), WebTA was not effective for allowing
managers to effectively manage annual leave advancements.

Without adequate controls in place, GPO increases its risk of advancing leave to
employees who may not earn it. Since annual leave is a benefit that is earned by
employees each pay period, advancing annual leave to employees who may not
work for a full year (i.e., more than 80 hours of LWOP) increases GPO’s risk of
incurring unearned annual leave expenses. In addition, by incorrectly advancing
annual leave, the Agency undermines incentives for employees to refrain from using
LWOP.




                                         16
Recommendations

       10. The CHCO should (at the end of each leave year) produce an annual list of
       personnel who are not eligible for advanced annual leave and forward that
       list to all business unit managers directing them to ensure that no personnel
       on the list are advanced annual leave.

Management’s Response. Concur. The Office of Finance and Administration will
produce an annual list of personnel who are not eligible for advanced leave. The
assistance of the Office of Human Capital will be needed to develop and issue the list
on a timely basis.

Evaluation of Management’s Response. Management’s proposed action is
responsive to the recommendation. The recommendation is resolved but
undispositioned and will remain open for reporting purposes pending completion of
the proposed action.

       11. The CFO should take the necessary action to modify WebTA to prevent
       the system from advancing annual leave to employees who are not eligible
       per GPO Instruction 645.13.

Management’s Response. Concur. Management will revise WebTA to address the
advanced leave issue sometime during fiscal year 2012

Evaluation of Management’s Response. Management’s proposed action is
responsive to the recommendation. The recommendation is resolved but
undispositioned and will remain open for reporting purposes pending the revision
of WebTA.




                                          17
                              Other Observations

During the audit, we identified the following issue related to GPO’s Goal Sharing
Program. The issue, previously reported by GPO’s Independent Public Accountant
during the 2010 Agency financial statement audit, is being presented for
management’s consideration and disposition as it determines necessary.

GPO incorrectly paid some of the 2009 GPO goal sharing payments. This occurred
because GPO Human Capital (HC) personnel did not use an accurate methodology to
calculate the goal sharing bonuses. As a result, GPO incorrectly paid about 2 percent
of eligible employees. Specifically, HC’s calculation methodology caused at least 17
(2 percent) of 1003 employees to receive incorrect goal sharing bonuses. We
identified erroneous payments in the amount of $381 in overpayments and $206 in
underpayments.




                                         18
              Appendix A. Objectives, Scope, and Methodology

We performed the audit from August 2010 through May 2011 at the GPO Central
Office in Washington, D.C. We conducted the audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence that will provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Objectives

The objectives of the audit were to determine whether GPO’s payroll operation
complied with applicable laws, rules, regulations, guidance, and GPO
Directives/Instructions related to the:

          •    Request and approval of LWOP;
          •    Management of AWOL;
          •    Request, approval, calculation, and administration of advanced annual
               leave;
          •    Calculation and administration of bi‐weekly and annual pay
               limitations; and
          •    Calculation, payment, and administration of the GPO Goal Sharing
               Program.

We are addressing an additional audit objective, to evaluate GPO’s management and
controls over overtime, as part of a separate ongoing audit.

Scope and Methodology

To obtain a general understanding of GPO’s payroll processing procedures we
researched Federal and GPO criteria on pay and leave including:

          •    Title 44, United States Code, Chapter 3, “Government Printing Office;”
          •    GPO Instruction 645.13, “GPO Leave Regulations,” July 25, 1988;
          •    GPO Directive 645.16, “Family/Medical Leave Without Pay (FMWOP)
               Under the Family and Medical Leave Act of 1993”, August 5, 1993;
          •    GPO Directive 655.4B, “Corrective Actions,” December 5, 2008;
          •    GPO Directive 640.7D, “General Pay Administration,” April 8, 2008;
               and
          •    GPO Instruction 665.22, “GPO Goal Sharing Program,” August 10,
               2004.




                                         19
Appendix A

We also discussed GPO payroll administration policies and issues with GPO senior
management including:

          •   Chief Management Officer;
          •   Chief Human Capital Officer;
          •   Associate General Counsel;
          •   Chief Financial Officer;
          •   Controller;
          •   Manager, Cash Management Services;
          •   Director, Labor Relations; and
          •   Managing Director, Plant Operations.

To determine whether GPO complied with applicable laws, rules, regulations,
guidance, and GPO Directives/Instructions related to LWOP, we:

          •   Obtained from GPO management, a WebTA report of all GPO LWOP,
              by individual, by pay period, for 2009 and 2010.

          •   From the WebTA report, developed a sample of LWOP for 2009 of
              (1) all employees who incurred over 240 hours (76 employees), and
              (2) a random 10 percent sample of all other employees who incurred
              LWOP for a total of 120 employees. The sample represented 32
              percent of all those incurring LWOP and 72 percent of total LWOP
              hours.

          •   Tested the sample by contacting each of the sampled employees’
              supervisors to obtain all available approval and supporting
              documentation and discussing the results.

To determine whether GPO complied with applicable laws, rules, regulations,
guidance, and GPO Directives/Instructions related to AWOL, we:

          •   Obtained from GPO management, a WebTA report of all GPO AWOL,
              by individual, by pay period, for 2009 and 2010.

          •   Examined the supporting documentation for a sample of employees
              whom GPO reported as AWOL for the period of May 9, 2010 through
              October 9, 2010.

To determine whether GPO complied with applicable laws, rules, regulations,
guidance, and GPO Directives/Instructions related to pay limitations we obtained



                                        20
                                                                        Appendix A

from GPO management, reports of employee salaries and overtime for 2009 and
2010. We also requested copies of all waivers for that requirement for both years.
We then compared those amounts to the annual and bi-weekly pay limitations for
both years and calculated the overpayments using the criteria in GPO Directive
640.7D.

To determine whether GPO complied with applicable laws, rules, regulations,
guidance, and GPO Directives/Instructions related to advanced annual leave, we
calculated and identified the type of LWOP for a judgmentally selected sample of the
12 employees with the highest amounts of LWOP at the end of 2009 and then
determined if GPO advanced those employees annual leave.

To determine whether GPO complied with applicable laws, rules, regulations,
guidance, and GPO Directives/Instructions related to GPO’s goal sharing program
we recalculated the number of non-overtime paid duty hours for employees and
determined their correct goal sharing payout.

Management Controls Reviewed

The objectives of our audit were to review and evaluate the management controls
associated with the management of leave and pay. The details of our examination of
management controls, the results of our examination, and noted management
control deficiencies are contained in the report narrative. Implementing the
recommendations in this report should improve those management control
deficiencies.

Computer-generated data

We relied on computer-generated data during this audit. Specifically, we relied on
employee time and attendance and leave data obtained from the WebTA system.
We assessed the reliability of the data but did not test general system and
application controls. In order to test leave and attendance data reliability, we
compared data from WebTA to NFC provided data; discussed leave issues with
supervisors; discussed entry procedures, discrepancies and system data transfers
with system administrators; and compared electronic entries to available manual
records. From these tests, we determined that the data was unreliable but
nevertheless usable. This occurred because employees, supervisors and
timekeepers are incorrectly entering time; the WebTA system breaks rules when
calculating usable leave while NFC systems do not; and supervisors are not making
corrections when necessary.




                                         21
         Appendix B. Acronyms Used in the Report


AWOL    Absence Without Leave
CFO     Chief Financial Officer
CHCO    Chief Human Capital Officer
GPO     Government Printing Office
GS      General Schedule Pay Plan
FMLA    Family and Medical Leave Act
HC      Human Capital
LWOP    Leave Without Pay
NFC     National Finance Center
OFA     Office of Finance and Administration
OIG     Office of Inspector General
OPM     Office of Personnel Management
PG      Printing Grade Pay Plan
SF      Standard Form
WebTA   Web Time and Attendance System




                                  22
                  Appendix C. Management’s Response




See Appendix D,
OIG Comment 1


See Appendix D,
OIG Comment 2




See Appendix D,
OIG Comment 3




                                 23
 Appendix C




See Appendix D,
OIG Comment 5




See Appendix D,
OIG Comment 6




                  24
     Appendix C




25
Appendix C




             26
                       Appendix C




See Appendix D,
OIG Comment 6




                  27
Appendix C




             28
        Appendix D. Office of Inspector General Comments on
                     Management’s Response

GPO management provided the following comments in response to the draft report.
The OIG’s response to each of the comments is also presented.

Management’s Comment. Management believes that the IG findings represent a
limited understanding of LWOP, its causes and ongoing actions taken by agency
management.

1. OIG Comments. The objectives of our audit, as presented to management in both
the audit announcement memorandum and draft audit report, were to determine
whether GPO complied with applicable laws, rules, regulations, guidance, and GPO
Directives/Instructions related to the request and approval of LWOP. Our objective
was not to analyze employee’s reasons for requesting LWOP or to determine how
and why individual managers choose to accept or deny LWOP, but rather how the
Agency documented unpaid hours. Based on a lack of documentation, we were not
able to determine why managers chose to accept LWOP for sickness, personal
emergencies or any other non-mandatory LWOP.

Management’s Comment. Finding A subjectively labels as “clearly excessive” all
individuals who “used over 300 hours of LWOP in FY2010.

2. OIG Comments. We believe that approximately 15,000 days of LWOP in a 2 year
period is clearly excessive for an agency the size of GPO. While conducting the audit,
many of the GPO line supervisors that we interviewed informed us that LWOP was
indeed a continuing problem and that there was a culture of LWOP misuse
throughout the Agency. The 50 GPO employees who had accumulated over 300
hours of LWOP during 2010 had at least 300 hours of non-mandatory LWOP and an
average of 710 hours of LWOP.

Management’s Comment. Management provided a chart breaking down the
categories of LWOP for Fiscal year 2010 by hours and controllability.

3. OIG Comments. Some notes on management’s chart:

   •   The LWOP categories cited by management in the chart did not match the
       LWOP categories available in WebTA—GPO’s primary tool for managing time
       and attendance. Management’s implementation of Recommendation 2
       should resolve that issue.

   •   The chart covers “fiscal year” 2010, our audit covered calendar year 2010 as
       described throughout the report. Therefore it is not valid to use the chart as
       a means of comparison with the audit data presented in the report.


                                         29
Appendix D


   •   Employee suspensions are just that, they are not LWOP per GPO Directive
       645.13 Chapter 8.

   •   Contrary to management’s categorization, Union Business LWOP is a
       controllable type of LWOP per 645.13 Chapter 8, paragraph 7 which states:

              7. Other Types of LWOP Which May Be Approved

              a. Union Business (ULWOP). A union representative or official may be
              granted a reasonable amount of ULWOP to perform his or her official
              union duties.

   •   By using management’s categorization of LWOP, approximately 64 percent of
       the 72,600 hours of LWOP are controllable, which equates to over 5,800 days
       of lost production time under potential management control during FY 2010.

Management’s Comment. Finding (B) did not include or consider counseling as an
action taken against employees, most likely because there are few records
documenting this action.

4. OIG Comments. We considered counseling and verbal warnings—the term used
in our report, to be the same thing. We agree with management’s comment that
there are few records documenting this action as we stated in Finding B, and which
was our basis for Recommendation 5.

Management’s Comment. Fundamentally, the root cause of not following policy is
not correctable by more policy.

5. OIG Comments. Our audit recommendations do not call for more policy but to
apply sufficient management attention and management controls to ensure that
established policy is followed consistently throughout the Agency.

Management’s Comment. The GPO does not have a bi-weekly pay cap on blue
collar employees’ salaries, so there is no limit on the overtime that can be worked.
There are also white collar workers that must be allowed to work over the bi-
weekly pay cap as a part of their jobs.

6. OIG Comments. As stated in the report, we did not include in the calculation of
bi-weekly salary cap violations, either blue collar workers or any white collar
workers who received an exemption from the bi-weekly pay cap.




                                             30
               Appendix E. Status of Recommendations



Recommendation        Resolved   Unresolved   Open/ECD*     Closed
      1                  X                     10-30-11
      2                              X
      3                   X                    10-30-11
      4                   X                               11-16-2011
      5                              X
      6                   X                     3-1-12
      7                              X
      8                              X
      9                              X
     10                   X                    3-30-12
     11                   X                    3-30-12

*Estimated Completion Date.




                                    31
                     Appendix F. Report Distribution

Public Printer
Assistant Public Printer, Operations
Chief of Staff
General Counsel
Chief Financial Officer
Chief Human Capital Officer
Chief Information Officer
Chief Technology Officer
Director, Congressional Relations
Managing Director, Plant Operations
Managing Director, Security and Intelligent Documents
Security Director




                                       32
Major Contributors to the Report

Karl Allen, Supervisory Auditor
David Hilburg, Senior Auditor
Patricia Mitchell, Senior Auditor




                                    33
